HHS/OIG-Audit--"Review of Rising Costs in the Emergency Assistance Program, (A-01-95-02503)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Rising Costs in the Emergency Assistance Program," (A-01-95-02503)
October 6, 1995
Complete
Text of Report is available in PDF format (2.6 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
From 1991 to 1994 emergency assistance (EA) expenditures claimed by States have increased by about 400 percent, from $153
million to $782 million. Emergency assistance expenditures are expected to reach over $1 billion in 1996. This final audit
report points out that States, in order to maximize Federal revenue, have been amending their respective EA programs to
obtain funding for services traditionally State funded. These services, predominantly juvenile justice, tuition, foster
care, and child welfare, usually address long-term problems. Because the EA legislation and regulations are broad, States
are able to shift these costs by lengthening the eligibility periods, defining emergencies to allow the shifting to occur,
and setting high income standards for eligibility. Primary recommendations call for the Administration for Children and
Families (ACF) to support legislation that would either cap the Federal share of EA expenditures or include the program
as part of a block grant, and revise or rescind current ACF policies allowing the shifting of costs to the EA program,
especially where such costs have been borne traditionally by the States. The ACF agreed that there is a urgent need to
control the rapid escalation of EA expenditures, and agreed to support capping EA expenditures.